Joshua J. Bennett
214.550.2112 (direct line)
jbennett@carterarnett.com
Carter Arnett PLLC
Campbell Centre II
8150 N. Central Expressway
Suite 500
Dallas, Texas 75206
Tel. 214.550.8188
Fax 214.550.8185

January 27, 2021

www.carterarnett.com

Via email and Federal Express
Brian Wolfman
Hannah Mullen
GEORGETOWN LAW APPELLATE COURTS IMMERSION CLINIC
600 New Jersey Ave., NW, Ste. 312
Washington, D.C. 20001
wolfman@georgetown.edu
Jay D. Ellwanger
Jen Despins
ELLWANGER LAW, LLLP
8310-1 North Capital of Texas Hwy, Ste. 190
Austin, TX 78731
jellwanger@equalrights.law
jdespins@equalrights.law
RE:

Proof of Service of Waiver in Collier v. Dallas County Hospital District,
doing business as Parkland Hospital, Docket No. 20-1004

Dear Counsel:
Enclosed is Respondent’s Waiver filed with the Supreme Court of the United
States January 27, 2021, which is served under Supreme Court Rule 29.3
Warmest regards,

Joshua J. Bennett

